S'

No.
3Jn tlje

Supreme Court of tfje Untteb i§>tate£
James Nathaniel Douse
Petitioner,
v.
United States of America, et al.
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
PETITION FOR WRIT OF CERTIORARI

James Nathaniel Douse
718 Thompson Lane
Bldg 108 Unit 124
Nashville, Tennessee 37204
(615) 848-4415
jamescnet90@yahoo.com
Petitioner Pro Se

Received
DEC 1 0 2019

1

QUESTIONS PRESENTED
QUESTIONS A through K. Pursuant to Rule 10 and
Rule 11. Answering these short questions will resolve
our issues and concerns with The Eleventh Circuit
Court of Appeals, The Federal District Court of
Northern Georgia and The Intent of North Carolina
State Legislator.

--

I am currently 100% permanently and Total Disabled
because of my consumption of Camp Lejeune Toxic
Water, November 1976 to January 1977 as a Private
Citizen. See N.C. Disability Statutes See Appendix,
App.47-52.
While the Camp Lejeune North Carolina Toxic Water
situation was tragic, the North Carolina Disability
Laws enclosed and North Carolina Failure to Warn
Statutes enclosed are Mandatory Directives, enacted
before year 1961, . . .in which both of these Laws and
Statutes were ignored by both the District Court and
Eleventh Circuit Court of Appeals. These North
Carolina Disability Laws and North Carolina Failure
to Warn Statutes will ultimately show that my Claim
is Timely, Filed in year 2012, and the cause of my
Disabilities and Injuries as a Private Citizen where the
many negligent decisions made by the Defendants. See
Camp Lejeune Toxic-Water-Map, App. 53.
A). Petitioner seeks review of North Carolina State
Disability Law § l-17(a) Disabilities. Whether this
Statute is applicable to an ex-serviceman and or
private citizen living as a private citizen on a U.S.
Military Base that was Not engaged in Military
Activities nor Duties.

U
.: 'A

\

11

The Statute Provides: “A person entitled to
commence an action who is under a disability at the
time the cause of action accrued may bring his or
her action within the time limited in this
Subchapter, after the disability is removed, except
in an action for the recovery of real property, or to
make an entry or defense founded on the title of real
property, or to rents and services out of the property,
when the person must commence his or her, or make
the entry, within three years next after the removal of
the disability, and no time thereafter.
For the purpose of the section, a person is under a
disability if the person meets one or more of the
following conditions:
(1) The person is within the age of 18 years.
(2) The person is insane.
(3) The person is incompetent as defined in G.S.
§ 35A-1101(7)(8).”
Subchapter I. Proceedings to Determine
Incompetence
Article 1.
Determination of incompetence
Gen Stat § 35A-1101.—Definitions
When used in this Subchapter
(7) “Incompetent adult” means an adult or
emancipated minor who “lacks sufficient capacity to
manage the adult’s own affairs or to make or
communicate important decisions concerning the

Ill

adult’s person, family or property whether the lack
of capacity is due to mental illness, mental
retardation, epilepsy, cerebral palsy, autism,
inebriety, senility, disease, injury, or similar
cause or condition”
(8) “Incompetent child “ means a minor who is at
least 17 1/2 years of age and who, other than by
reason of minority lacks sufficient capacity to make
or communicate the important decision concerning
the child’s person, family, or property, whether the
lack of capacity is due to mental illness, mental
retardation, epilepsy, cerebral palsy, autism,
inebriety, disease, injury, or similar cause or
condition.
B). Petitioner seeks review of the North Carolina
Law § 1-19. Cumulative disabilities.
(Does Supervenes Diseases include Latent
Diseases?) seeing that This Statute Provides: “When
two or more disabilities coexist at the time the right of
action accrues, or when one disability supervenes
an existing one, the limitation does, North Carolinas’
Statute of Limitation nor and North Carolinas’ Statute
of Repose, not attach until they all are (Disabilities)
removed.”
Under North Carolina Law § 1-19 is “Supervenes
Diseases” constructed or Interpreted as Latent
Diseases? and Does Latent Diseases includes
Supervenes Diseases?
C). Petitioner seeks review Whether A Petitioner at
age 19 years old in December 1976 and Pursuant to
North Carolina State Disability Law § l-17(a).

IV

Would that person be considered disabled if he met
one or more of the following condition: (1) the
person is within the age of 18 years; (2) the person
is insane; (3) the person is incompetent as defined
in N.C. Gen Stat § 35A-1101(7) or (8). In general,
the Federal Tort Claims Act (“FTCA”) waives the
United States’ sovereign immunity when its
employees act negligently within the scope of their
official duties. See 39 U.S.C. § 409 (c); 28 U.S.C.
§ 1346(b)(1).
The Petitioner Claim arose out of the Personal
Injury ... as a Private Citizen.
D). Petitioner seeks review Whether the United
States is liable. ...
Where a Claim is Timely filed under North Carolina
Disability Laws: North Carolina Disability § 1-17;
North Carolina Disability § 1-19; North Carolina
Disability § 1-20; AND North Carolina Law § 35A1101(7) and (8). Definitions., Where North Carolina
Disability Laws allow the Timeliness of Petitioners
Claim and govern the Timeliness of a Petitioner’s
Claim even if the petitioner file his claim more than
12 years after unknowingly consumed Camp
Lejeune Toxic Water?
The FTCA makes the United States liable “in the
same manner and to the same extent as a private
individual under like circumstances.” 28 U.S.C. § 2674;
see also id. § 1346(b)(1) (the United States may be held
liable in tort for the actions or omissions of its
employees “under circumstances where the United
States, if a private person, would be liable to the
claimant in accordance with the law of the place

V

where the act or omission occurred”). . . . which
would be The State of North Carolina Law is what
Governs Timeliness of a claim and is where the act
occurred.
E). Petitioner seeks review whether North Carolina
Statutes:
North Carolina State Disability Law § 1-17 together
with
North Carolina State Disability Law § 1-19.
Cumulative disabilities and
North Carolina State Disability Law § 1-20
Preempt North Carolina’s 10-vear Statute of
Repose.
Respectfully, The Eleventh Circuit and Federal
District Court of North Georgia’s Ruling is not legal
The N.C. Disability Statutes (a Mandatory Directive)
Does Not support its Rulings ... as it related to:
Case 12-15424 Date File 10/14/2014 Page 1 thru 15.
An Eleventh Circuit Court of Appeal October 14,
2014 Ruling? (See Appendix, App. 19).
An Eleventh Circuit Court of Appeals Ruling for
Case 16-17573 Date File 05/22/2019 Page 1 thru 6.
(See Appendix, App. 1-6).
And THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
Atlanta Division Ruling for Case Lll-MD-2218TWT (See Appendix, App. 7-18).

VI

The case below shows that North Carolina’s 10year Statute of Repose nor The Discretionary Function
Exception are not applicable to my existing Claim see
APPENDIX-G.
North Carolina State Rule of Law Case Dated:
December 20, 2016, Case No. COA16-481 Court of
Appeals of North Carolina on page 6; DELVON R.
GOODWIN v. FOUR COUNTY ELECTRIC CARE
TRUST, INC, Where PETITIONER Claim would be
GRANTED under NC Disability Laws.
F). Petitioner seeks review As Georgia State Case,
16EV004542, was in Default Judgement in Favor of
Petitioner for $20,000,000 but that Georgia State Case
was Illegally Removed to District Court. See Appendix,
App. 37-44.
See State of Georgia lawsuit case no. 16EV004542.
. . . as This lawsuit was spawn off from my Camp
Lejeune Toxic Water Lawsuit, case l:ll-md-02218TWT and Appeals number 16-17573 where the
Defendant’s attorney, Adam Bain, violated Fourth
Amendment Constitutional Rights and Federal
Statutes. This case was in clear Default it was Illegally
Removed to Federal District Court and Docketed as
l;16-cv 04195-TWT and later Dismissed in Error as
was Appeal Case number 18-12179. Per Federal
Statute “Removal must be done within 30 days” and
Removal is not allowed if Defendant violated Protected
constitutional Rights: Georgia Constitutional Rights:
Federal Statutes “28 U.S.C. § 2679(b')(2KA')
Exclusiveness of remedy” and “28 U.S.C.
§ 2679(b)(2)(B) Exclusive ness of remedy” and “18
U.S.C. § 2724. Civil action. See Appendix “E”

Vll

Federal and States governments with sovereignty.
. . . . check each other and whether the misapplication
of a properly stated rule of law applies here.
* State of Georgia Constitution and it’s Bill of
Rights: Section 1.
* Paragraph XIII. Searches, seizures, and war
rants. The right of the people to be secure in their
persons, houses, papers, and effects against
unreasonable searches and seizures shall not be
violated, and no warrant shall issue except upon
probable cause supported by oath or affirmation
particularly describing the place or places to be
searched and the persons or things to be seized.”
DENIED PETITIONERS CLAIM
* Paragraph II. Protection to person and prop erty;
equal protection. Protection to person and property
is the paramount duty of government and shall be
impartial and complete. No person shall be denied
the equal protection of the laws.”
* And Austin v. Morland, 288 Ga App. 270 (653
SE2d 347) (2007) Page 39, 40, 41.
* Social Security Administration Sec. 1177 [42
U.S.C. 1320D](a) Offense
“A person who
knowingly and in violation of this part”
* See Appeal Number: 18-12179 Date Filed
01/24/2019 Page: 1 Thru 13 [DO NOT PUB LISH] is
noted
All Evidence found in Petitioners’ claim should be
considered and weighted Equally under the Law.

Vlll

Lower Court’s Misapplication of Law See Appendix,
App. 45-46.
THE UNITED STATES COURT OF APPEALS FOR
THE ELEVENTH CIRCUIT and THE UNITED
STATES DISTRICTS COURT FOR THE NORTHERN
DISTRICT OF GEORGIA Both entered Decision,
Opinions and Ruling. . . . That is in conflict with
another United States court of appeals on the same
important matter; Also they disregarded N.C.
Disability Statutes (a Mandatory Directive) See
Appendix App. 47-52. In doing so they Greatly aided
the Defense arguments.
G). Petitioner seeks review Whether this “NEW”
Judge Advocate General/Government’s Attorney’s
Defense is applicable to this Petitioner’s Claim 1812179 where this claim is a HIPPA Violation and a 4th
Amendment Violation. . . . The Judge Advocate
General/Defendant is stating that the Government
Employee was acting within the scope of his/her
employment if a Director of a federal agency certifies
that the employee was acting within the scope of
his/her employment, However, Per Statute: Only the
“Attorney General of the United States may certify that
an employee was acting within the scope of his/her
Employment at the time the negligent incident
occurred.
H). Petitioner seeks review Whether This
“NEW” Judge Advocate General/Government’s
Attorney’s Defense is applicable to this Petitioner’s
Claim 16-17573 as this is a Camp Lejeune Toxic Water
Claim; The Judge Advocate General/Defendant is
stating that the Government Employee was acting

IX

within the Scope of his/her employment ... if a
Director of a Federal agency certifies that the employee
was acting within the scope of his/her employment. .. .
Here also Per Statute: Only the “Attorney General of
the United States may certify that an Employee was
acting within the scope of his/her employment at the
time the negligent incident occurred.
I). Petitioner seeks review Whether Petitioner is
entitled to Monetary Damages for Injuries,
compensatory damages and Punitive damages (under
Georgia Law and for pain and suffering) and Whether
Petition er is entitled to Equitable relief Demographics
such as New Social Security Number and Date of Birth.
Seeing the individuals in Witness Protection acquire
the same benefits... . Where punitive damages cannot
be recovered under the FTCA.
J). Petitioner seeks review of Judgement by Default
at Georgia State Court. See APPENDIX “A”;
APPENDIX “B”; APPENDIX “C”; APPENDIX “D”;
Whether an Awarded for this petitioner is due. . . .
seeing Removal was illegal. Petitioner’s Favor should
be granted for case 16EV004542 as it was Removed to
Federal District Court as l:16-cv-04195-TWT it was
Removed Late and illegal. Statute Provides that
“Removal must be done within 30 Days, and it was not.
After case 16EV004500 was in Default, Petition er file
for Motion for Default Judgment but it was ignored by
District Court. As Removal nor Substitution are not
permissible when Defendant has clearly violated my
Protected Constitutional Amendment Right and State
Constitutional Rights and violated more than one
Federal Statutes, The District Court knows this.

X

K). Petitioner seeks review Whether North Caro
lina Statutes N.C.G.S. § 99B-5(a)(l) and § 99B-5(a)(2):
Claims based on inadequate warning or instruction are
applicable to: FAILURE TO WARN Petitioner’s
FAMILY MEMBERS and Whether Post-Discharge
Failure To Warn is applicable here where a failure to
address an identified danger is in consistent with
regulations and therefore would not be covered under
the FTCA’s discretionary function exception to liability.

XI

PARTIES TO THE PROCEEDING
The Petitioner is James Nathaniel Douse, a
Plaintiff-Appellant below.
Additional Plaintiffs-Appellants below were Andrew
Straw, Erica Y. Bryant, Robert Burns, Daniel J. Gross,
II, Robert Park, Sharon Kay Boling, Linda Jones,
Estelle Rivera.
Leandro Perez, et al. were Plaintiffs below.
The Respondents and Defendants-Appellees below
are the United States of America, Department of the
Navy, United States of America, Administrator of the
Environmental Protection Agency, Division Director,
Department of Environmental Protection Agency,
Department of Defense, Secretary of the Navy.

Xll

LIST OF DIRECTLY RELATED PROCEEDINGS
United States Court of Appeals for the Eleventh Circuit
No. 16-17573
In Re: Camp Lejeune North Carolina Water
Contamination Litigation, Leandro Perez, et al.
Plaintiffs Appellants, v. United States ofAmerica, etal.,
Defendants.
Opinion Date: May 22, 2019
Rehearing Date: September 5, 2019 Denied
United States District Court,
Northern District of Georgia, Atlanta Division
In Re: Camp Lejeune North Carolina Water
Contamination Litigation.
Multidistrict Litigation No. 1:11-MD-2218-TWT
Decision Date: December 5, 2016
Georgia State Case
James Nathaniel Douse, Plaintiff, Pro Se v. Adam
Bain, Defendant
Case Number: 16EV004542
Federal District Court James
Nathaniel Douse, Plaintiff, Pro Se v. Adam Bain,
Defendant
Case Number: 16:CV-04195-TWT.

xm
TABLE OF CONTENTS
QUESTIONS PRESENTED........
PARTIES TO THE PROCEEDING

1

xi

LIST OF DIRECTLY RELATED
PROCEEDINGS.........................

Xll

TABLE OF AUTHORITIES

xv

OPINIONS BELOW

1

JURISDICTION

1

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THIS WRIT

18

CONCLUSION

19

APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(May 22, 2019)
App. 1
Appendix B Opinion and Order in the United
States District Court for the Northern
District of Georgia Atlanta Division
(December .5, 2016)
App. 7
Appendix C Opinion in the United States Court of
Appeals for the Eleventh Circuit,
No. 12-15424
(October 14, 2014)
App. 19

XIV

Appendix D Order
Denying Rehearing and
Rehearing En Banc in the United
States Court of Appeals for the
Eleventh Circuit
(September 5, 2019)
App. 35
Appendix E Plaintiff Motion filed in Fulton County
Court re: HIPAA Violation Litigation
(November 23, 2016)
App. 37
Appendix F Misapplication of Law by Eleventh
Circuit Court of Appeals May 22, 2019
App. 45
Ruling
Appendix G N.C. Disability Statutes . . .

App. 47

Appendix H Camp Lejuene Toxic Water
Map........................................

App. 53

XV

TABLE OF AUTHORITIES
CASES
Berkovitz by Berkovitz v. United States,
486 U.S. 531, 108 S. Ct. 1954,
100 L.Ed. 2d 531 (1988).......................................... 8
Beugler v. Burlington Northern & Santa Fe Ry. Co.
490 F.3d 1224 (10th Cir. 2007)
12, 19
Clemente v. United States,
766 F.2d 1358 (9th Cir. 1985).

7

Franklin v. United States,
992 F.2d 1492 (10th Cir. 1993)

6, 11, 19

Iglehart v. Board of County Comm’rs of Rogers
County, 60 P.3d 497 (Okla. 2002).................. 12, 19
Jaffee v. United States,
592 F.2d 712 (3d Cir.), cert, denied,
441 U.S. 961 (1979)...........................................

7

Kennewick Irrigation District v. United States,
880 F.2d 1018 (9th Cir. 1989). .......................

8

Lombard v. United States,
690 F.2d 215 (D.C. Cir. 1982), cert, denied,
462 U.S. 1118 (1983)........... ............................

7

Pereira v. United States Postal Service,
964 F.2d 873 (9th Cir. 1992)...........................

7

Richards v. United States,
369 U.S. 1 (1962)...............................................

7

XVI

Summer v. U.S.,
905 F.2d 1212 (9th Cir. 1990).........

15

U.S. v. Olson,
546 U.S. 43 (2005).............................

18

CONSTITUTION AND STATUTES
U.S. Const, amend. IV

1, 11, 15, 16

U.S. Const, amend. XIV

11

10U.S.C. § 1207...........

6

18 U.S.C. § 2724...........

1, 10

28U.S.C. § 1254(1).......

1

28 U.S.C. § 1446...........

1

28 U.S.C. § 2679(b)(2)(A)

1, 10

28 U.S.C. § 2679(b)(2)(B)

1, 10

N.C.G.S. 1-17...............

2, 6, 7, 8, 9

N.C.G.S. § 1-19.............

2, 6, 7, 8, 9

N.C.G.S. § 1-20............

2, 6, 7, 8, 9

N.C.G.S. § 35A-1101. . . .

. . 6, 7, 8, 9

N.C.G.S. § 99B-5(a)(l) . .

6, 7, 8, 9

N.C.G.S. § 99B-5(a)(2) . .

6, 7, 8, 9

O.C.G.A. § 9-15-14.......

13

O.C.G.A. § 51-12-5.1. . . .

13

1
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Eleventh Circuit, which is unpublished, is
attached to the Petition at App. 1. The decision of the
United States District Court for the District of Georgia,
Atlanta division is attached to the Petition at App. 7.
JURISDICTION
This Court Jurisdiction is invoked under 28 U.S.C.
§ 1254(1).
Again, Petitioner seeks Review of this Georgia State
case, a HIPAA violation, and Fourth Constitutional
Amendment violation. This case, 16EV004542, was
spun-off from a Camp Lejeune Toxic Water case,
l:ll:md02218- TWT, 12/05/2016, Circuit Appeal
number 18-12179.
Pursuant to 28 U.S.C. § 1446—Procedure for
removal of civil actions, .... which demands within 30
day notice to be given, and It was Removed after 33
days. Also and Removal is not allowed if Defendant
violated Protected constitutional Rights; Georgia
Constitutional Rights; Federal Statutes “28 U.S. Code
§ 2679(b)(2)(A) Exclusiveness of remedy” and “28 U.S.
Code § 2679(b)(2)(B) Exclusiveness of remedy “ and “18
U.S. Code § 2724. Civil action. See Appendix “E”.
Respectfully, The Eleventh Circuit Court of Appeals
and Federal District Court of Atlanta Georgia several
times have disregarded North Carolina State Statutes
thereby giving favor and an unfair, unwarranted
advantage to the defendant and also where it’s Ruling
multiple times have clearly been inconsistent and

2
conflicts with other State Appeals Courts on the same
important matter.
My Georgia State Court case is Docketed as
16EV004542 and even though the case was officially in
Default at the time of Removal and Judgement by
Default was warranted to the Petitioner. The Federal
District Court of Atlanta Georgia still allowed the
illegally Removed to Federal District Court and Docket
No. l:16-cv-04195-TWT.
Petitioner seeks review of the illegally Removal
allowed by Federal District Court of Atlanta Georgia
and these North Carolina Statutes that have been
consistently disregarded
North Carolina State Disability Law § 1-17.
North Carolina State Disability Law § 1-19.
Cumulative disabilities and
North Carolina State Disability Law § 1-20.
The North Carolina State Statutes Preempt North
Carolina’s 10-year Statute of Repose. . . . and rather
Petitioner’s Claim is Timely See Eleventh Circuit Case
16-17573 May 22, 2019 Ruling on N.C. Statute of
Repose, App. 1-6.
STATEMENT OF THE CASE
I.

Factual Background

1). My Active Duty Military Service was from
approx. August 1976 to November 1976. I Served
Active Duty at Camp Geiger Marine. As a Private

3
Citizen, I live at Camp Lejeune Marine Base North
Carolina. See CL Toxic-Water-Map. Disability Map.
I was never injured nor sick at Camp Geiger.
Petitioner is an Honorably Discharged United
States Marine Corps VETERAN. It was in January
1977, living on Camp Lejeune as a Private Citizen.
Within a few weeks, after unknowingly ingesting
unlabeled Camp Lejeune’s Toxic water that I began to
feel ill and dizzy not knowing what was the cause.
Almost immediately I know something was wrong . . .
but I did not know what. After Discharged, I yet lived
as a Private Citizen at Camp Lejeune where I perform
no Military Duties at Camp Lejeune North Carolina.
As a Private citizen, I was there waiting to enter
college for the Winter Semester. Thus, The Feres
Doctrine absolutely does not apply to me as I was not
driving any military vehicle nor performing any
military activities but rather as a private citizen
watching cartoons and playing basketball all day and
of course drinking water after every game of
basketball. I just had just turned 19 years old
December 1976.
2). This Petitioner timely file a F-95 Administrative
Claim 2010. This Petitioner file suit in Federal District
Court in 2012, in Federal District Court, Atlanta
Division. Because they know that my claim is Timely,
Valid and Payable.
Now, They Judge Advocate General, single me
out and sent me 2nd Administrative Adjudication
denial letter, 9 years Later. Asking me to File
Again. The letter is dated January 25, 2019, and
references my Personal Injuries and indicating its

4
exceptions as to why my claim was denied. The letter
was sent January 25, 2019, and was finally forwarded
to me at my Tennessee address and should not be
mailed me at an old address In spite of North
Carolina’s Mandatory Directive, this Judge Advocate
General insists that my Claim is untimely because of:
3). Again, As of January 25, 2019, The Judge
Advocate General is requesting that I REFILE my
lawsuit within appropriate District Court. . . . (i) That
case is Close; (ii) Judge Thomas Thrash does not have
jurisdiction over that case; (iii) The Judge Advocate
General letter in my view is partly informative in
addition to being sent to the wrong address. Circuit
and District Clerk of Courts have my current correct
mailing address. See Judge Advocate General Letter
enclosed Dated January 25, 2019. (iv) to “Refile” within
6 months Thus, that would possibly amount to
^Doctrine of Res Judicata.
4). While at Camp Lejeune Petitioners’ injuries was
almost immediate, such Migraines Headaches, Severe
headaches, Stomach problem, Irritable Bowel
Syndrome. Months later, these injuries condition
became progressively worse and developed into
Seizures, (epilepsy with abnormal body jerking, arms
waving etc) Severe Migraines headaches (frontal)
Fainting, Unexplained Dizziness and Vertigo Problems.
Later I found out I was having Complex Partial
Seizures and other Neurological Injuries and
Neurological Effects. The Petitioner is currently
taking 2 prescription medications for these
conditions and I see my Neurologist 2 times a
year every year to monitor my Neurological and

5
Epileptic Injury condition. From my freshman year
in college at South Georgia College, Douglas Georgia,
until now All Camp Lejeune Toxic Water Injuries and
Disabilities I still from January 1977 to today May
2019. I am now Permanently and Totally Disabled
because of this Toxic Water Injuries. I want to
Compensatory Damages for my Injuries. Years later,
I also have incurred a Liver disease called
Hepatic Steatosis (a Toxic Water Fatty Liver
Injury and Disease). I have worked in Data
Processing/ Information Technology and Computer
Science all my life. I have never smoked, did illegal
drugs nor Drank alcohol (except a few glasses of wine
on occasion for my blood pressure). I have never work
with nor intentionally came in contact with Toxic
Chemicals nor Drugs, except when I unknowingly
consumed Toxins at Camp Lejeune Marine Base. The
Evidence is clear and can be easily traced back to
Camp Lejeune Toxic Water ingesting January 1977.

''Z

“Medical Experts within the Science community
including The Agency for Toxic Substances and
Disease Registry (ATSDR) released it’s
Summary and Findings” water modeling report
for the Hadnot Point and Holcomb Boulevard
Water Treatment Plants and Vicinities for
Marine Corps Base Camp Lejeune, N.C. see
http://www.atsdr.cdc.gov/sites/lejeune/

Thus, These Medical Experts have concluded that
Supervenes Diseases are Latent Diseases.
Furthermore, there was no Post Discharge Failed to
Warn as a Camp Lejeune as serviceman was
discharged in November 1976. servicemen about the

6
toxic exposure to those chemicals both during service
and following discharge from service, as a proximate
result of the government’s failure to warn Mr. Douse,
The Petitioner, about the toxic chemical exposure
following his discharge from the military. North
Carolina law substantive law governs Petitioner’s
FTCA claim. See Franklin v. United States. 992 F.2d
1492. 1495 (10th Cir. 19931
II.

Finding

Pursuant to 10 U.S.C. § 1207 Disability from
Intentional Misconduct or Willful Neglect. This
Petitioner is seeking Relief for Violation of 28
U.S.C. § 2679 intentional Infliction of Emotional
Distress. Pursuant to The Federal Tort Claims Act,
(FTCA) as a Private Citizen, I incurred Personal
Injuries, Property Damages and under the Laws, I am
entitled to Monetary Damages.
Pursuant to Mandatory Directives of North
Carolina Disability laws N.C.G.S. § 1-17; § 35A-1101.
DEFINITIONS; § 1-19; § 1-20; and Pursuant to
Mandatory Directives North Carolina’s Failure to Warn
Statute § 99B-5(a)(l) and § 99B-5(a)(2).
Petitioner Claim was Timely and properly served
and is entitle to Damages for Personal Injuries and
Property Damages and Compensatory Damages.
*N.C.G.S. Disability Law and N.C. legislature gave fair
notice of redress which can be clearly traced back to the
Defendant as the Proximate cause. Pursuant to the
Intent of the United States Congress and North
Carolina General Assembly.

7
* Mandatory Directives of North Carolina Disability
laws precludes North Carolina Statute of Limitation
and North Carolina Statute of Repose
*

The duty or Liability of the United States in
a tort action is defined in accordance with the
law of the state where the negligence occurred.
Richards v. United States, 369 U.S. 1 (1962)
(negligence occurred in Oklahoma, aircraft
crashed in Missouri). Neither federal statutes
nor the Constitution create a cause of action
under the FTCA. Thus, plaintiffs attempting to
assert constitutionally based claims do not state
a claim within the jurisdiction of the court under
the FTCA unless they can point to an
actionable tort duty recognized under the
law of the state where the act or omission
occurred. Jaffee v. United States, 592 F.2d 712
(3d Cir.), cert, denied, 441 U.S. 961 (1979);
Lombard u. United States, 690 F.2d 215 (D.C.
Cir. 1982), cert, denied, 462 U.S. 1118 (1983);
Clemente v. United States, 766 F.2d 1358, 1363
(9th Cir. 1985); Pereira v. United States Postal
Service, 964 F.2d 873, 876 (9th Cir. 1992).

*

The Mandatory Directives of North Carolina
Disability laws N.C.G.S. § 1-17; § 35A-1101.
DEFINITIONS; § 1-19; § 1-20 Preclude Feres
Doctrine....... also see Disability Map where my
Military service took place. App. 53. See North
Carolina’s Mandatory Directives Failure to
Warn Statutes § 99B-5(a)(l) and § 99B5(a)(2),
App. 47-52.

8
*

Where North Carolina Disability law as its
Mandatory Directives of N.C.G.S. § 1-17;
and § 35A-1101. DEFINITIONS; and § 1-19;
and § 1-20 collectively Preclude North
Carolina Statue of Repose.

*

Where North Carolina’s Failure to Warn Stat
utes § 99B-5(a)(l) and § 99B-5(a)(2)
Preclude North Carolina Statue of Repose.

*

In Support of this Petitioner Petition is
The United States Supreme Court’s Holding in
Berkovitz by Berkovitz v. United States, 486 U.S.
531, 535,108 S. Ct. 1954,1958,100 L.Ed. 2d 531
(1988), and it Preclude Discretional Function
Exception. “In accordance with the Supreme
Court’s decision in Berkovitz by Berkovitz v.
United States, 486 U.S. 531, 535, 108 S. Ct.
1954, 1958, 100 L.Ed.2d 531 (1988), this court
utilizes a two-step test to determine
whether the FTCA discretionary function
exception applies in a given case. See
Kennewick Irrigation District v. United States,
880 F.2d 1018, 1025 (9th Cir. 1989). We must
consider first whether the challenged action is a
matter of choice for the acting employees: “[T]he
discretionary function exception will not apply
when a federal statute, regulation, or policy
specifically prescribes a course of action for an
employee to follow”.

This Petitioner has taken a legal position in these
Appeal cases: 18-12179 and 16-17573 as the Circuit
Court and District Court and Judge Advocate General
are excluding/ignoring North Carolina’s Mandatory

9
Directives and are employing none applicable defensive
exceptions used to dismiss case District C. case 1:11md-02218-TWT; Appeals case number 18-12179 and, in
my view will use the same none applicable defensive
exceptions to dismiss 16-17573 (Re-hearing has been
denied).
Again, in the Eleventh Circuit Court October
14. 2014. ruling and December 05. 2016 District
Court ruling it did not include nor Reference any
of the. . . . Mandatory Directives of North
Carolina Disability laws N.C.G.S. § 1-17; § 35A1101. DEFINITIONS: S 1-19: $ 1-20: North
Carolina’s Mandatory Directive § 99B-5(a)(l) and
§ 99B-5(a)(2b
However, N.C. Mandatory Directive gives clear
guidance regarding its Disability Laws and Failure to
warn and Fail to provide adequate instructions Claims.
Note: October 14, 2014, The Eleventh Circuit reviewed
the application of the Statutes in Bryant v. United
States, Case No. 12-15424, and agreed that the
Legislative amendment substantially amended the
law. . . . Per The Eleventh Circuit, cases were
Remanded to lower court.” See Georgia State Case
“16EV004542” Default Judgement
“Questions of liability are resolved under the FTCA
in accordance with the law of the state where the
allegedly tortious activity took place.”
That is a 2nd Related situation. Petitioner filed a
motion for default judgment. A judgment should have
been entered due to Defendant’s Failure to comply and
it is not reversed on request of the defendant, it is

10
considered a final judgment. There was a State of
Georgia lawsuit case no. 16EV004542. This lawsuit
was spun-off from my Camp Lejeune Toxic Water
Lawsuit, case l:ll-md-02218-TWT where the
Defendant’s attorney, Adam Bain, violated my
Constitutional Rights and Federal Statutes. When the
case was in clear Default it was Illegally Removed to
Federal District Court and Docketed as l;16-cv04195-TWT and later Dismissed in Error as was
Appeal Case number 18-12179. The conflict and
misapplication of law is (a) whether HIPAA preempts
Georgia State law for waiving an individual’s Right to
Privacy, when the Defendant is required to do,
according to statute, prior to release was supposed to
contact Petitioners’ Physicians for permission to
release, Defendant never contacted Petitioners
Physicians.. . . when means the Defendant’s release
was Unauthorize, Without consent to release an
individual’s Personal information on the internet it is
a clear violation of HIPAA Laws, Privacy Laws (rights
to privacy) and Georgia State Laws a waiver of rights
for personal information is not applicable See Moreland
v. Austin caselaw. (b) Removal must be done within 30
days and Removal is not allowed if Defendant violated
Protected constitutional Rights; Georgia Constitutional
Rights; Federal Statutes “28 U.S.C. § 2679(b)(2)(A)
Exclusiveness of remedy” and “28 U.S.C.
§ 2679(b)(2)(B) Exclusiveness of remedy” and “18
U.S.C. § 2724. Civil action. See Appendix “E”.
This HIPAA Violation Lawsuit is not about a
government agency having my personal
information in hand, the suit is for illegally
disclosing, transferring my personal information

11
unredacted, without consent and without authorization
by my Physicians or myself and See United States 4th
Amendments of the Constitution. See United States
14th Amendments of the Constitution, Georgia’s
Constitution Bill of Rights.“State of Georgia
Constitution . . . and violation of Federal Statutes in
the process.”
Petitioner is entitled to relief and proper
Judgement, as Defendant was properly and timely
served with Summon and Complaint. In the sum of an
Outstanding balance of $20,000,000.00 (Twenty-Million
Dollars). Petitioner also ask for Punitive Damages
under Georgia Law in the sum of $250,000.00 (Two
Hundred Fifty-Thousand and zero cents). See:
Appendix “A”; Appendix “B”; Appendix “C”;
Appendix “D”; Appendix “F”
Petitioner has an Injury Claim and Is Entitle
to All: RELIEF SOUGHT
“North Carolina law substantive law governs
Plaintiffs FTCA claim. See Franklin v. United States,
992 F.2d 1492, 1495 (10th Cir. 1993) (“Questions of
liability are resolved under the FTCA in accordance
with the law of the state where the alleged tortious
activity took place.”). North Carolina Law requires
Plaintiff to establish proof of the following three
elements to support a claim of negligence:
(1) a duty owed by the defendant to protect the
plaintiff from injury;
(2) a breach of that duty by the defendant; and

12
(3) the plaintiffs injury was proximately caused by
the defendant’s breach of that duty.
Beugler v. Burlington Northern & Santa Fe Ry. Co.,
490 F.3d 1224, 1227 (10th Cir. 2007) (quoting Iglehart
v. Board of County Comm’rs of Rogers County, 60 P.3d
497, 502 (Okla. 2002)).
Petitioner’s Injuries, Diseases, (Losses) and
Monetary Request for Damages: Claims for damages
caused, Although not barred by a legislative exception
to the FTCA, suits by members of the military or naval
service arising out of acts incident to service are
barred”. This Plaintiff was clearly a Private Citizen at
the time of injury.
A. There Is Not a Statutory Limit on These
Economic Damages
The Federal Tort Claims Act waives sovereign
immunity, and gives federal district courts jurisdiction,
with respect to claims for injury or loss of property, or
personal injury or death caused by the negligent or
wrongful act or omission of any employee of the
Government while acting within the scope of his office
or employment, under circumstances where the United
States, if a private person, would be liable to the
claimant in accordance with the law of the place where
the act or omission occurred. This exclusivity is a
condition in which one party grants another party
Rights with regard to a particular remedies available
for an Injured party for a particular event.

13
B. Attorney’s Fees and Punitive Damages
under Georgia State Statutes
Recognizing under FTCA Attorney Fees, Punitive
Damages nor interest prior to judgment are allowed.
However, the FTCA “makes the United States liable in
the same manner and to the same extent as a private
individual under like circumstances, Reason able
Attorney Fees to date Pursuant to O.C.G.A. § 9-15-14
$1,444,722.00; O.C.G.A. 51-12-5.1 (2010) 51-12-5.1.
Punitive damages
C. Intention Inflection of Emotional Distress
Seeking Injury Damages My Camp Lejeune Toxic
Water Medication for Injuries as a Private Citizen and
Diseases such as: Neurological Effects
*Trileptal 300mg: Neurological Epilepsy/Seizure
Disorder
*Sertraline
Depression

lOOmg:

PTSD,

Anxiety

Disorder,

*Trazadone HCL 50mg PTSD, Anxiety Disorder,
Depression
*Gabapentin 300mg: Chronic Migraine Headaches
*Trazadone HCL 50mg Sleep Apnea;
Deprivation and Vertigo

Sleep

*Meloxicam 15mg: Fibromyalgia
*Naproxen 500mg: Fibromyalgia
*Pantoprazole 40mg Stomach Indigestion problems

14
*Nexium Stomach Indigestion problems
*IBUPROFEN 800mg for constant Pain over my
entire body.
^Irritable Bowel Syndrome, IBS.
*Auto-Immune Deficiency
*Left Breast Collapses
D. Diseases
- Compensatory Damages
- Hepatitis “C”
- Hepatic steatosis (a Toxic Water Fatty Liver
Injury and Disease)
E. Damages for Negligent
Emotional Distress

Infliction

of

$1,875,000.00
F. 9 years of Litigation Expenses Supplies to
date
$7,302.47
G. Comnensatorv Damages
$57,417,000.00
H. Equitable relief-New Demographic as in
witness protection New Social Security.
New Date of Birth
. . . as of now . . . Petitioner has no privacy.

15
L Toxic Water Pre and Post Discharge
Failure warn and Did not Provide
adequate Instructions
$20,000,000.00 (Twenty-Million Dollars)
J. Default Judgement for
16EV004542

Georgia

Case

$20,000,000.00 (Twenty-Million Dollars)
III.

OTHER
MATERIAL
AND
FACTS
PETITIONER BELIEVES IS ESSENTIAL

This “New” Defense is being raised against Peti
tioner’s Claim 18-12179 and was raised in Petitioner’s
Claim 16-17573. See Judge Advocate General January
25, 2019 letter which references my Personal Injuries.
My Military duties were at Camp Giger, not Camp
Lejeune.
See the Camp Lejeune Disability map See Summer
v. U.S., 905 F.2d 1212 (9th Cir. 1990).
Yet, Both Lower Courts did not now allow Petitioner
to introduce New Finding of North Carolina Mandatory
Directive, Disability Laws and case law all of which
Favor petitioners Petition.
The Lower Court is Partial and incomplete.
January 24, 2019, The Eleventh Circuit denied
Petitioner Claim, 18-12179 which is a suit for a HIPPA
Violation and 4th Amendment violation lawsuit.
February 07, 2019, Petitioner file a PETITION FOR
RE HEARING AND REHEARING EN BANC. Since

16
March 18, 2019, the request was still pending in the
Eleventh Circuit Court of Appeals.
September 5, 2019, the Eleventh Circuit Court of
Appeals denied my Motion for Rehearing.
GRANTING this Writ of Certiorari is paramount as
the Eleventh Circuit’s Ruling/Decision will clearly
negatively affect our Camp Lejeune Toxic Water
Claims, 16-17573 as well as Appeal number 18-12179.
We must bring resolution to these cases. Cases To be
Reviewed: The Eleventh Circuit Court of Appeals
judgment on January 24, 2019 (which is a HIPPA
Violation and 4th Amendment Violation) Appeal
Number 18-12179 and Georgia State Court and
Docketed as: 16EV004542 additionally, that January
24, 2019, Ruling will directly and negatively affect a
Pending The Eleventh Circuit case 16-17573 case
Pending at the Eleventh Circuit Court of Appeals)
1. The Eleventh Circuit Court of Appeals entered its
judgment on October 14, 2014 Appeal Number 1215424 (Camp Lejeune Toxic Water) and on May 22,
2019,for Appeal Number 16-17573 which is
inconsistent with other Appeal Courts
2. On January 25, 2019, The Judge Advocate
General submitted a denial letter, Personal injuries On
January 24, 2019, The Eleventh Circuit Court of
Appeals Entered a judgment of denial. In coordination,
both notifications use the exact same Defense/reason as
to why my Claims were denied. In my view, those same
Defense raised in the other cases will be used against
Pending Appeal 16-17573.

17
3. That exact same Defense/reason use for Cases
l:ll-md-02218, 12/05/2016 Appeal number 18-12179
and will negatively affect a pending appeal with in the
Eleventh Circuit which is 16-17573. See HIPAA ruling
which is inconsistent with Eleventh Circuit January
24, 2019 ruling. Also See its January 24, 2019 ruling
and Judge Advocate General Denial exceptions in its
Denial letter. See Judge Advocate General Denial
letter—June 2012 for Property Damage. See Judge
Advocate General Denial letter—January 25, 2019,for
Personal Injuries.
Other Facts Petitioner believes is essential:
Status of Eleventh Circuit cases
* PETITION FOR REHEARING AND RE
HEARING EN BANC For Appeal No. 18- 12179-FF
was filed February 7, 2019, . . . pending.
* PETITION FOR REHEARING AND RE
HEARING EN BANC For Appeal No. 18- 12179-FF
was DENIED APRIL 02, 2019
* PETITION FOR REHEARING AND RE
HEARING EN BANC MANDATE ISSUED for
Appeal No. 18-12179-FF APRIL 10, 2019.
* PETITION FOR REHEARING AND RE
HEARING EN BANC A family member deceased
March 30, 2019, prevented Petitioner from
Responding Timely. ... as I was out of Town in
South Florida (Fort Lauderdale, FL.).

18
Showing good cause, Petitioner kindly requested
Eleventh Circuit Court of Appeals to Stay/Recall of
Mandate.
a). Pursuant to Federal Rules of Appellate
Procedure Rule 41(b) and Pursuant to Federal 7. Rules
of Appellate Procedure Rule 41(d).
b). The Eleventh Circuit Court of Appeals was
previously advised March 19, 2019 of a Pending
Certiorari;
c). The Certiorari Notice was Docketed on March 19,
2019.
See Exhibit Motion to Recall and Motion to Stay
mandate issued April 10, 2019.
See U.S. v. Olson, 546 U.S. 43 (2005). . . . U.S. v.
Olson—Holding that the United States’ liability under
the FTCA is to be based on the state law liability of a
private party.
REASONS FOR GRANTING THIS WRIT
These conditions are applicable, Allowable of the
Writ Under Rule 11 and Rules 10 and 14.1(h)”
(a) because of the misapplication Laws of North
Carolina State Disability Mandates and its Mandate
for Failure to Warn Claims. See APPENDIX “G”.
(b)These cases involve different ruling on the exact
same subject matter, North Carolina State Disability
Laws, (c) This petition complies with Supreme Court
Rule 10 and Rule 11 as Eleventh Circuit appeals
number 18-12179 decision on Jan. 24, 2019 and appeals
number 16-17573 Denied September 5, 2019 in

19
Eleventh Circuit Court of Appeals, (d) Default
Judgement is warranted to Petitioner and is still
outstanding, (e) The cases Involves an unusually
important legal principle regarding two or more
appellate courts have interpreted a law differently,
Namely the North Carolina’s Disability Law
Mandatory Directives, The North Carolina’s Disability
Law Mandatory Directives Failure to Warn Statues;
Whether HIPAA laws preempts The State of Georgia
Right Waiver of Right to Personal, (f) To avoid injustice
and a continuous erroneous, deprivations of the
Petitioners Rights to Justice, (g) To correct the
misapplication of the same North Carolina State
Disability Laws which are applicable and have been
applied here in this Court Case Dated: December 20,
2016, Case No. COA16-481 Court of Appeals of North
Carolina (see page 6).
CONCLUSION
North Carolina State Disability Laws substantive
law governs the Plaintiff s FTCA claim. See Franklin v.
United States, 992 F.2d 1492, 1495 (10th Cir. 1993)
These Questions of “liability under the FTCA in
accordance with the law of the state where the alleged
tortious activity took place (1) a duty owed by the
defendant to protect the Petitioner from injury; (2) a
breach of that duty by the defendant; and (3) the
Petitioner’s injury was proximately caused by the
defendant’s breach of that duty. Beugler v. Burlington
Northern & Santa Fe Ry. Co., 490 F.3d 1224, 1227
(10th Cir. 2007) (quoting Iglehart v. Board of County
Comm’rs of Rogers County, 60 P.3d 497, 502 (Okla.
2002)).

20
We are Asking The United States Supreme Court to
exert oversight and its Supervisory Authority over the
Lower where applicable according to state laws. Again,
FTCA liability “turns on the relevant substantive state
law applicable to private individuals under like
circumstances.” The Eleventh Circuit states that it
currently has not a way to submit questions directly to
the North Carolina State Supreme Court. Adhering to
the Constitution of the United States and Laws of the
State of North Carolina State and of Georgia is
paramount. North Carolina State gives clear
Mandatory Directives.
Petitioner is unaware rather this Eleventh Circuit
Court of Appeal certified to the State Attorney General
of North Carolina the fact that the constitutionality of
a statute of that State was drawn into question.
Petitioner is unaware rather this Eleventh Circuit
Court of Appeal certified to the State Attorney General
of Georgia the fact that the constitutionality of a
statute of that State was drawn into question.
*N.C.G.S. Disability Laws has been enacted earlier
than the year 1960.
The North Carolina legislature gave fair notice of
redress which can be clearly traced back to the
Defendant even though there will a deliberate
indifference is Proximate cause. See “N.C. Disability
Enactment 1975 Obeying the United States
Constitution and Laws of the State of North Carolina
is paramount. This question regards The Power of
Democracy as well as call for an exercise of this Court’s
Supervisory Power in an effort to enforce compliance
with the United States Constitution and Laws of the

21
State of North Carolina and the State of Georgia. Using
your Supervisory Powers to direct the Eleventh Circuit
how to proceed in regards to North Carolina State
Disability Laws Mandatory Directives.
Lastly, Petitioner has properly alleged which
specific action caused injuries . . .
Seeing that:
N.C. Disability laws a Mandatory Directive
preclude Statute of Limitation and
N.C. Disability laws a Mandatory Directive
preclude Statute of Repose and
N.C. Disability Maps, laws and Mandatory
Directive preclude Feres Doctrine and N.C.
Disability laws a Mandatory Directive preclude
Discretional Function.
Defendant’s new Defensive Maneuver seeking to
affirm its decision by stating a Director of a Federal
Agency affirms its employee as acting within the scope
of employment when the wrong occurred, ... is in
Direct Conflict with the Federal Law, FTCA and N.C.
Mandatory Directive.
Pursuant to Rule 14. l(i) and Supreme Court Clerk’s
March 29, 2019 correction Request to include: To order
The Default Judgement for Georgia State case
16EV004542 which was Illegally Removed to Federal
District Court as 1:16-cv-04195-TWT.
State courts of last resort mean in-laws.... The
United States Supreme Court is the court of last

k

22
resort.... and Final Court to Appeal to....in our cases
and in this jurisdiction.
Even though...
“Circuit Courts, duty to protect those who have been
adjudged incompetent extends beyond the trial courts
to the appellate courts. See id. (exercising supervisory
power to assume jurisdiction without an appeal and
review errors committed against an incompetent
“individual”,.......
So, Prayerfully I, Adjure Thee and solicit your
Direct Favor and Help.....as we Love our God and our
Country, United States of America, we did nothing
wrong.
Micah 6:8, What does The Lord Require of Thee....
Do Justly, Love Mercy and Walk Humbly with Thy
God.
“He hath shewed thee, O man, what is good; and
what doth the Lord require of thee, but to do justly, and
to love mercy, and to walk humbly with thy God.”
Respectfully Submitted,

James Nathaniel Douse
718 Thompson Lane
Bldg 108 Unit 124
Nashville, Tennessee 37204
(615) 848-4415
jamescnet90@yahoo.com
Petitioner Pro Se

